Nos. 19-251 & 19-255
AMERICANS FOR PROSPERITY FOUNDATION,
Petitioner,
v.
XAVIER BECERRA, IN HIS OFFICIAL CAPACITY AS THE
ATTORNEY GENERAL OF CALIFORNIA,
Respondent.
__________

THOMAS MORE LAW CENTER,
Petitioner,
v.
XAVIER BECERRA, IN HIS OFFICIAL CAPACITY AS THE
ATTORNEY GENERAL OF CALIFORNIA,
Respondent.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that Brief of the Cato
Institute, Committee for Justice, and Texas Charter Schools Association as
Amici Curiae in Support of Petitioners contains 4,920 words, excluding the
parts of the document that are exempted by Supreme Court Rule 33.1(d).

/s/ Ilya Shapiro
Counsel of Record

